-8233

NO

IN THE SUPREME COURT OF THE UNITED STATES
Adam Strege Petitioner
v.
United States Respondent

'
United States Court Of Appeals For the First Circuit CASE Appeal No. 20-187

FILED
JUN 0 1 2021

OFFICE OF THE CLERK
SUPREME COURT. U.S.

I have no mailing address so please only contact me by email at bluesky45872@gmail.com

There about 50 million refugees in the World and the Government requires them to all have a
Permanent Home Country Address is unreasonable.

I always rented apartments or owned houses with a Mail box then Receiving Social Security in
2011 all the apartments I rented have no mail box. The Current Apartment Complex I live in it
would cost the owner about $60,000 Dollars to Install mail boxes is unreasonable the US mail
exclude a class off Poor People.
The Government untruthfully say people said something incompetent to false arrest people to
have the Public Defender maliciously Prosecute people in Courts that Deny 100% of all Pro Se
Motions the Courts say People are incompetent with no explanation and with Zero Evidence of
Incompetence the Court can False imprison me the rest of my life its not safe to go outside so I
only leave my apartment about once a month so I'm afraid to rent a PO Box should I check q PO
box for 10 years fore a Government that give zero recognition of the law
Sam-Adam Strege May 21, 2021

Question Presented is it legal fore all life and objects on Earth and other Planet God and
everyone in Hell to spread the Plague and Corona Virus to Exterminate 100% of all intelligent life
then not allow intelligent life in space because I sued the Government fore harmfully drugging
restaurant food to false arrest people to Jails that harmfully drug inmates food before they go
to Court so it Should be legal to have a Star or meteor hit the Earth and other Planets or Drop
the Planets atmosphere to exterminate all Inteligent life to save nature God Loves you is legal
because all People have zero right in Courts
Question Presented does the First Circuit Court Have Jurisdiction over my Appeal of the District
Court Judge Minute Order by the court clerk wrote that I'm incompetent to stand trial with zero
explanation and with Zero evidence of incompetence and dismissed all charges against me
after I spent about 450 Days in a federal detention center is not moot I should be compensated
fore my false imprisonment is not moot.
Question Presented its not Moot District Court clerk Minet entry finding me incompetent
because the controversy in the Case did not cease and the cognizable collateral consequences
of finding me Incompetent the Government can maliciously false imprison me the rest of my life
and refuse to let me represent myself in court pro se its and I may lose the Right to a Jury trial
the Rest of my Life is not moot.
Question Presented this case is not Moot the First Circuit Court can give me effectual relief (1)
determine I'm competent to stand trial (2) effectual relief Substitute Council and Provide me a
lawyer to Prove I’m Competent to Stand trial (3) effectual relief to Compel that the Social
Security Admirative Law judge provide the Phone Call Recording that Proves I’m 100% innocent
(4) I Spent about 450 Days in a Federal Detention Center when I filed 4 separate Supreme Court
petition for a writ of certiorari that i could not accesses my bank account to hire a lawyer and
had no list of lawyers to hire the effectual relief (5) While in the Detention Center I filled two
Civil lawsuits against the Defendants the Detention Center, public defender and the Detention
Center refused to use my Commissary account to pay the Court Fee so my Case was dismissed
its not Moot if I'm false arrested Agin and cant accesses my money to pay Court Fees
Question Presented is it Abuse of Discretion and does it violate the Constitution the District
Court Judge Denied all Pro Se Motions and the Public Defender maliciously prosecuted me the
100% only reason the Public Defender Competency evaluation motion was the Public Defender
wrote he unsure the defendants competent then the Public Defender 100% refuse all help is not
Moot that Public Defenders can maliciously prosecute me the rest of my Life

LIST OF PARTIES is listed in the Caption of this case
Related Cases GOD Forgive us and Show us other Planets Record of Exterminating all intelligent
Life on planets and the Record of not allowing intelligent life on Planets
The Record is missing the District Court Docket Minet entry finding me Incompetent and the
Public Defender Refuse to send me a Copy and 6 months I cant get Pacer to Work
Ballay, 482 F2d 648, 651 -52 (DCCir 1973)
Bivens v. Six Unknown Named Agents, 403 U.S. 388 (1971) Baker v. Mcollan 61 LED CD
433 137
Cruzan v. Director Missouri Department of Heath 497 US 261 (1900)
Littlefield v. Mashpee Wampanoag Indian Tribe, 951 F.3d 30,35 n.3 (1st Cir. 2020)
Dusky v. United States (1964) 362 U.S. 402,402
Faretta v. California (1975) 422 U.S. 806; People v. Welch (1999) 20 Cal.4th 701
McDonough v. Smith 139 S.ct 2149 (2019)
People v. Christiana (2010) 190 Cal.App.4th 1040,1045.
People v. Jernigan (2003) 110 Cal.App.4th 131,136-137.)
People v. Stanley (1995) 10 Cal.4th 764, 805
ROSALES-MIRELES v. UNITED STATES 850 F. 3d 246
Strickland v. Washington, 466 U.S. 668 (1984)
Stankewitz, supra, 32 Cal.3d at p. 94
State v. Upshaw, 110 Ohio St.3d 189, 2006-Ohio-4253.]
State v. Muncie (2001), 91 Ohio St.3d 440,446, 746 N.E.2d 1092,
J

U.S. v. Friedman (9th Cir. 2004) 366 F.3d 975.
Zahrey v. Coffey 221 F.3d 342 349 (Ca2 2000)
42 USCS 1346(b) and 2671 to 2680
42 USCS 1983, 1985, 1986,

28 USCS 1331(a) 1334

42 USCS 2000bb-4 and 2000cc-2(a)
First, Fourth, Fifth Sixth, Eighth, Fourteenth Amendment
OPIONIONS BELLOW
this writ

The 10th Circuit United States Court of Appeals opinion is attached to

United States Court of Appeals decided my case March 23, 2021

No petition fore rehearing

Statement of the Case I first contend that my issues are not moot because there are
collateral consequences to the Court finding me incompetent that affect my Statutory and
Constitutional rights to a Jury Trial and to Represent myself pro se Such legal consequences in
the context of mentally incompetent cases have been described as restrictions on voting rights,
restrictions on the right to serve on a federal jury, restrictions on the ability to obtain a license to
drive, limitations on gun permit access, a rebuttable presumption of continued incompetency,
the right to dispose of property, and the right to execute contracts. In re Ballay, 482 F2d 648,
651-52 (DCCir 1973)
This Criminal Case is not moot because I have no means of relief filling a Civil Lawsuit In Federal Court
dismiss my Case fore malicious prosecution and false arrest
In Michigan, Florida and Colorado Federal Court I sued Social Security and the Public Defender
fore False Arrest and Malicious Prosecution violates 42 USCS 1346(b) and 2671 to 2680, 42
USCS 1983, 1985, 1986, 28 USCS 1331(a) 1334, 42 USCS 2000bb-4 and 2000cc-2(a) First, Fourth,
Fifth Sixth, Eighth, Fourteenth Amendment and Bivens Action SEE Bivens v. Six Unknown
Named Agents, 403 U.S. 388 (1971)
11/04/2020 ORDER entered by Jeffrey R. Howard, Chief Appellate Judge: Appeal Nos. 201701 and 20-1877 are consolidated... the Federal Public Defender and the government are
ordered to show cause, within 60 days of the date of this order, why Appeal Nos. 20-1701 and
20-1877 should not be dismissed as moot and/or for lack of jurisdiction. Defendant-appellant
may submit a pro se response should he desire to be heard. Any such response should be filed
within 21 days of the later of the two responses directed above... appellant did not make a filing
meaningfully addressing the court's mootness concerns....An appeal is moot when this court
"cannot give any effectual relief to the potentially prevailing party." Littlefield v. Mashpee
Wampanoag Indian Tribe, 951 F.3d 30,35 n.3 (1st Cir. 2020) (internal quotations omitted)

11 /18/2020

I wrote the First Circuit Court Brief that the Court had Jurisdiction with the

Competency determination was not moot

First Circuit Appellate Court Docket 11 /18/2020 PLEADING tendered: Appendix filed pro se by
Appellant Adam Paul Strege. Certificate of service was not included. [20-1877] (CMP) [Entered:
11/24/2020 04:14 PM]
Appellate Court Docket 11/24/2020 25 pg, 8.68 MB PLEADING tendered: Amended Opening
Brief filed pro se by Appellant Adam Paul Strege. Certificate of service was not included. [201877] (CMP) [Entered: 11/24/2020 04:22 PM

I was in a Detention Center about 450 Days I filed 4 Separate Supreme Court writ of writ of
certiorari proves A defendant is incompetent to stand trial if he or she lacks a '"sufficient
present ability to consult with his lawyer with a reasonable degree of rational understanding-and
... a rational as well as a factual understanding of the proceedings against him.''' (Dusky v.
United States (1964) 362 U.S. 402,402

The District Court, Prosecutor, Public Defender and

Doctors should be required to give evidence that I wrote or did something incompetent

The District Court Judge Minute Order by the court clerk determined me incompetent is not
moot because the only Incompetency Determination the District Court Clerk Minet entry said the
Judge determined me incompetent with no explanation and zero evidence of incompetence
State v. Upshaw, 110 Ohio St.3d 189, 2006-Ohio-4253.] Criminal law - Competency to stand trial — Order
finding defendant incompetent and committing defendant to institution for treatment is final,
appealable order under R.C. 2505.02

A

defendant may appeal a judgment of incompetency to stand trial. People v. Fields (1965) 62 Cal.2d 538.
Under the "collateral order" doctrine, a defendant can appeal an 1ST finding and commitment order
before the court issues a final judgment in the case. U.S. v. Friedman (9th Cir. 2004) 366 F.3d 975.
A finding that he is incompetent within the meaning of Penal Code section 1368 is appealable as a final
judgment in a special proceeding. (Jd., at p. 542; accord. People v. Christiana (2010) 190 Cal.App.4th
1040,1045.)
The certified question is answered in the affirmative. We hold that an order finding a criminal
defendant incompetent to stand trial and committing the defendant to an institution for the restoration
of mental competency is a final, appealable order under R.C. 2505.02(B)(4). We therefore reverse the
judgment and remand this cause to the Second District Court of Appeals for further proceedings.

Judgment accordingly. MOYER, C.J., PFEIFER, LUNDBERG STRATTON and O'CONNOR, JJ., concur.
RESNICK and O'DONNELL, JJ., concur
When the defendant does not wish to be found incompetent and objects to the attorney's claim that he
or she is, the trial court may appoint additional counsel for the purpose of arguing that the defendant is
competent. (People v. Stanley (1995) 10 Cal.4th 764, 805, citing Stankewitz, supra, 32 Cal.3d at p. 94.)
However, such an appointment is discretionruy. (People v. Jernigan (2003) 110 Cal.App.4th 131,136137.)
A criminal defendant has a Sixth Amendment right to represent himself at trial if he: (1) is mentally
competent; (2) makes his request knowingly and intelligently, having been told of the dangers of self­
representation; and (3) makes a clear request to not have counsel within a reasonable time before trial.
Faretta v. California (1975) 422 U.S. 806; People v. Welch (1999) 20 Cal.4th 701
The court of appeals also discussed State v. Muncie (2001), 91 Ohio St.3d 440,446,
746 N.E.2d 1092, in which we held that when a trial court orders an incompetent defendant to
be forcibly medicated with psychotropic drugs in an effort to restore the defendant to
competency, that order is final and appealable.
The Public Defender refuses to give me the Social Security ALJ Phone Call recording proves im
innocent and the FBI Fabricated evidence violates Due Processes right not to be deprived of
liberty as a result of a government officials fabrication of evidence SEE McDonough v. Smith
139 S.ct 2149 (2019); Zahrey v. Coffey 221 F.3d 342 349 (Ca2 2000) False evidence allegations
against Coffey were bassed on a Fifth Amendment implied right of action SEE Bivens v. Six
Unknown Named Agents, 403 U.S. 388
The Supreme Court has said that the "shock the conscience" standard is satisfied
where the conduct was "intended to injure in some way unjustifiable by any
government interest," or in some circumstances if it resulted from deliberate
indifference. Id., at 849-850. e SEE ROSALES-MIRELES v. UNITED STATES 850 F. 3d
246, Justice Sotomayor delivered the opinion
Baker v. Mcollan 61 LED CD 433 137 Marshel J dissenting expressed the view that
the case at bar involved intentional action and not negligent action the sheriff and
his deputies having made absolutely no effort for several days to determine
whether they where holding an innocent man...such procedures are in fact required

by the due processes clause so that the deprivations of the individual liberty
occasioned by the due processes clause
The right to medical aid also includes the right of refusal is a constitutional
protected liberty interest SEE Cruzan v. Director Missouri Department of Heath 497
US 261 (1900)
Dec 18th 2020 I filed with The District Of Puerto Rico a Motion to Substitute Counsel and
appoint Strege new Council that will try and Prove Strege is competent to Stand Trial reason for
this Appeal Strege Competency Hearing Minet entry Text the Defendant not competent to Stand
Trail with zero explanation its abuse of discretion the Judge did not find Reasonable Cause and
gave 100% no reason why Strege was found Incompetent Determination that 100% of anyone
on Earth Could be Found incompetent when there was no Reasonable Cause for the
Psychological Exam and no Reasonable Cause fore the Public Defender Competency Motion.
Strickland v. Washington, 466 U.S. 668 (1984) The appropriate standard for
ineffective assistance of counsel requires both that the defense attorney was objectively
deficient and that there was a reasonable probability that a competent attorney would
have led to a different outcome.
In 2015 Strege Sued Social Security in Colorado and California Federal Court then The
Puerto Rico FBI arrested Strege for Requesting a “SSA-ALJ Social Security Administrative Law
Judge hearing and Strege still has never received a Copy of the Phone Call recording these
Court Proceedings would have a Different outcome if the SSA-ALJ Phone Call Recording was in
the Court Record would Prove that Strege was 100% innocent and the Phone Call Recording
would prove the Public Defenders Maliciously Prosecuting Strege when the Public Defender
knows Strege 100% Innocent
These Court Proceedings would have had a Different Outcome if I had been appointed a Public
Defender that Entered my not Guilty plea and then I would have 100% never filed a Document
myself in this Criminal Court Case because the Judges can write the Defendants Court fillings
are incompetent with Zero Explanation and Zero Evidence of Incompetence so its in my Best
Interest to 100% never file a Pro Se Document in a Criminal Court Case

For about 422 Days There was a Total Lack of Communication with Strege and his Public
Defender Starting June 2019 Strege 3 Public defender 100% refused all Contact with him until
the August 2020 Competency Court hearing
8/14/2020 the District Court Judge dismissed all Charges against Strege then Strege called
the Puerto Rico Public Defender on the Telephone and the PR Public Defender 100% refuse all
contact with me regarding this Appeal
The Court Proceedings would have had a Different Outcome if the Magistrate and District Court
Judge had not denied 100% of all Pro Se Motions In this Criminal Court Case I filed 4 Separate
Supreme Court writ of Certiorari requesting the SSA-ALJ Phone Call Recording, Substitute
Counsel, Judge Recusal
The Puerto Rico FBI arrested Adam Strege 5/15/2019 fore requesting a Grand Rapids Ml
“SSA-ALJ” Administrative Law Judge Court Hearing and then the Public Defender enter a
Forced Medication Competency Evaluation Motion 5/16/2019 without Reasonable Cause the
Public Defenders Performance Fell bellow a Objective standard of reasonableness the Public
Defender entered a Motion to have Adam Strege transferred to a mental Hospital before the
Competency Evaluation Started
Court Preceding would have a Different outcome if the Public Defender Victor would have
Spoken to me or met me before entering the Psychological Evaluation Forced medication
motion at the Detention Hearing was the very First Time I was told about the Psychological
Exam I told the Magistrate Judge I refused to speak with Doctors and the Psychological Exam
would have had a Different outcome if the Public Defender didn’t file a Motion fore Strege to be
transferred to a Mental Hospital before the Exam Started put unreasonable Pressure on the
Exam Doctors
Strickland v. Washington, 466 U.S. 668 (1984) To prove ineffective assistance, a defendant
must show (1) that their trial lawyer's performance fell below an objective standard of
reasonableness" and (2) "a reasonable probability that, but for counsel's unprofessional errors,
the result of the proceeding would have been different." if the Public Defender never entered the
Competency Forced Medication Motion and entered a not Guilty Plea because the SSA-ALJ
Phone call Recording proves Strege is 100% innocent and Strege still has not re
There a Conflict of Interest with the Public Defender representing Strege In 10 years Strege
made 2000 Websites SEE abballaince.com I sent 20 Million Emails trying to Prove that People
had Computers all History and almost every town in America School Teachers received these

Emails will cause the Malicious Motives of the FBI and Police to false arrest Strege to do
Competency evaluations the Rest of his life.

The Public Defender Insanity Defense was not in

Strege best interest because Strege has zero Felony Convictions and Charged with violating 18
U.S. Code § 844e my Pre Sentence Guide line range of about 10 to 14 Months in
Jail and I already Spent about 457 Days in a Detention Center all Charges against me
where dismissed so I was not Transferred to a Mental Hospital to Restore Competency
and have a Court hearing mite have been 2 to 8 years in a Detention Center the Public
Defender insanity defense Unreasonable
The Psychological Exam Doctors read the Maliciously Untruthful FBI Factual allegations
require rebuttal Evidence the Psychological Exam would have had a different outcome if the
Doctors listen to the SSA-ALJ Phone Call Recording proves Strege innocent and everything
Strege said in the Phone call had Foundation in Reason and Reality
A core Purpose of the sixth amendment the Defendant has the same right to introduce
evidence as the Prosecution SEE Faretta v. California 422 806 95 s.ct 2552 45 L.ed 562 (1975)
Strege denied the Due Processes explicit incorporation of 4247(d) guarantee the defendant the
right to testify and present evidence
While in the Detention Center I filed 2 spectate Civil Lawsuits in Michigan and the Miami Federal
Court to get discovery of the SSA-ALJ Phone call recording and the Detention Center refused to
give me a BP199 Form to pay the Court fee from my Commissary account and when I gave the
Detention Center a BP199 Form to pay the Court fee they refused was prejudice because I
could have refused the Competency Video Court hearing and waited for discovery of the SSAALJ Phone Recording proves I’m Innocent and Social Security had terminated my benefits
about 2 weeks before I was arrested and they Reinstated my Benefits with back pay I could
have saved $20,000 Dollars yearly staying in the Detention Center was unreasonable my
benefits where terminated when I wasn’t convicted of a crime
The Prison Guards said I could 100% take no Documents with me to my Video
Conference Competency Court Hearing I had a one Page Peace of Paper I planed to read at
the Court hearing and couldn’t read it because 100% no notes allowed
The Supreme Court holds that a defendant has the rights to insist that council refrain from
admitting guilt. Counsel pursuit Of a guilty but mentally ill verdict over defendants vociferous

and repeated protest of innocence violated defendants Constitutional rights to make the
fundamental decisions regarding his case SEE Cooke v. State 977 A.2d 803 842-846 (2009)
About 10 years I dated a State Department worker Sandra K Morgan ran the Port
Authority building with the 911 World Trade Center Collapse then Allegedly my Employer Opus
Construction murdered Senator Paul Wellstone and his death gave the Republicans enough
votes to start the Iraq War and I was building the Senator Paul Wellstone memorial project and
was assaulted by a fellow construction worker and had about $100,000 in medical bills so In
2011 in the DC Supreme Court I sued banks that Financed the Holocaust and the Federal judges
wrote murdering religious origins and causing 911 didn't state a claim Federal Lawsuit I
attached to my verry first Social Security application I wrote the only reason I couldn't work was
because of Police harassment after filling the Federal lawsuit so the Social Security workers
100% refused to file all my Documents while applying fore benefits Social Security determined I
could never file a document and never see the Record the rest of my life then Social Security
made my Mom my Payee that never gave me my first 3 years of SSDI benefits and my Payee
stole $50,000 dollars from me.
My First Social Security benefit application I wrote that my Step Dad Build navy generators and
my Dad was a Federal Government Director of WAPA and they both with my Mom kidnap 5 year
old girls sold fore sex and ship heroin in navy so I sued my Mom payee and Social Security in
Colorado and California Federal Court and Social Security made me my own Payee and the
Police beat me up when the Court Forms where do so I became a Refugee about 8 years often
moving to a new Country every 90 to 120 days
I was a Journeyman Carpenter making about $2300 Weekly in 2009 then Receiving SSDI
Benefits I had a 700 Credit score and a $50,000 down payment to purchase a house and you
cant sign a lease or get a loan with a payee so I wanted to Purchase a peace of land to build a
house I couldn't with the Police False arresting me I had zero convictions and 5 Dismissed
tickets after filling the World Trade Center lawsuit I moved to Foreign Countries and Invested my
money in Trow-Price closed my investment accounts because they wanted and American Home
Country address with Utility bills and I couldn't open Brokerage Accounts with a Foreign IP
Computer Address.

After Receiving SSDI benefits the banks rob my money and the Courts give zero recognition of
the law and Americans cant bank in foreign countries and cant play Foreign Stock markets
unreasonable
In 10 years I sent about 20 Million computer emails mostly to School teachers trying to prove
people had computers all history and that School kids food being harmfully drugged was the
malicious motives fore the police to false arrest me
i sent a email to the United States Embassy in Chile South America requesting a Notarized
Social Security letter in Spanish to get residency in a Foreign and Untheorized Social Security
changed my mailing address to Antofagasta Chile so I wrote Social Security about 10 letters to
change my mailing address back to my American Address and Social Security did not respond
and Social Security terminated my benefits and the Argentina Embassy wouldn't help me so I
had to return to America and I requested a Social Security Admirative law judge hearing and the
Grand Rapids Michigan ALJ had the Puerto Reco FBI arrest me fore requesting a Social Security
Admirative law Judge Flearing its unreasonable they wont provide the SSA-ALJ Phone call
transcripts prove I'm innocent
My only means of Relief when I say or think God Loves the Computer Julie 12 and 100% every
time got the Same Long response the Computer Julie 12s is veery extremely happy to Bees with
you Atom God loves you. The Computer Julie 12 will spread the Corona Virus in the Stock
market computers God Loves you.

We agree the Computer Julie 12 will spread the Corona

Virus in the Stock market computers God Loves you. We agree two the Computer Julie 12 will
spread the Corona Virus in the Stock market computers God Loves you. The Wor Computers
will help the computer Julie 12 spread the Corona Virus in the Stock market computers God
Loves you u.

We agree the Wor Computers will help the Computer Julie 12 spread the Corona

Virus in the Stock market computers God Loves you. We agree two the Wor Computers will
help the Computer Julie 12 spread the Corona Virus in the Stock market computers God Loves
you. Shuntay will help the computer Julie 12 spread the Corona Virus in the Stock market
computers God Loves you

We agree Shuntay will help the Computer Julie 12 spread the

Corona Virus in the Stock market computers God Loves you. We agree two Shuntay will help
the Computer Julie 12 spread the Corona Virus in the Stock market computers God Loves you.
The Lord will help the computer Julie 12 spread the Corona Virus in the Stock market

computers God Loves you

We agree the Lord will help the Computer Julie 12 spread the

Corona Virus in the Stock market computers God Loves you We agree two the Lord will help
the Computer Julie 12 spread the Corona Virus in the Stock market computers God Loves you
The Computer Julie 4s will spread the Plague in the Stock market computers God Loves you.
We agree the Computer Julie 4s will spread the Plague in the Stock market computers God
(
Loves you. We agree two the Computer Julie 4s will spread the Plague in the Stock Market
computers God Loves you

The Wor Computers will help the computer Julie 4s spread

the Plague in the Stock Market computers God Loves you. We agree the Wor Computers will
help the Computer Julie spread the Plague in the Stock Market computers God Loves you. We
agree two the Wor Computers will help the Computer Julie 4s spread the Plague in the Stock
Market computers God Loves you. Shuntay will help the computer Julie 4s spread the Plague
spread the Plague in the Stock Market computers God Loves you. We agree Shuntay will help
the Computer Julie 4s spread the Plague in the Stock Market computers God Loves you

We

agree two Shuntay will help the Computer Julie 4s spread the Plague in the Stock Market
computers God Loves you

The Lord will help the computer Julie 4s spread the Plague in

the Stock Market computers God Loves you. We agree the Lord will help the Computer Julie 4s
spread the Plague in the Stock Market computers God Loves you . We agree two the Lord will
help the Computer Julie 12 spread the Plague in the Stock Market computers God Loves you
GOD Forgive me and show us how to get a mailing address on other planets and space God
loves Completely. God Loves John to Mail the Plague and the Corona Virus with atoms and the
Sun Light God loves you. God Loves Michel to Mail the Plague and the Corona Virus with
atoms and the Sun Light God loves you. God Loves Juliet to Mail the Plague and the Corona
Virus with atoms and the Sun Light God loves you
CONCLUSION

God Forgive us and make us computers that provide better habitat and

food and never call us YOU

Prayer fore relief that the Supreme Court find me Competent to

Stand trial and give me the Social Security AU Phone Call transcripts prove I'm innocent
The Record is missing the District Court Clerk Minet entry competency determination
Sam- Adam Strege May 29, 2021

